                     AUDIT OF
THE OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
          2007 TECHNOLOGY PROGRAM GRANT
      AWARDED TO THE TOWNSHIP OF KALAMAZOO
                KALAMAZOO, MICHIGAN


              U.S. Department of Justice
            Office of the Inspector General
                     Audit Division


             Audit Report GR-50-11-005
                    August 2011
                         AUDIT OF
    THE OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
              2007 TECHNOLOGY PROGRAM GRANT
          AWARDED TO THE TOWNSHIP OF KALAMAZOO
                    KALAMAZOO, MICHIGAN

                          EXECUTIVE SUMMARY

       The Office of the Inspector General, Audit Division, has completed an
audit of the Office of Community Oriented Policing Services (COPS)
Technology Program grant number 2007-CK-WX-0041 in the amount of
$746,934 awarded to the Township of Kalamazoo, Michigan. The COPS
Technology Grant Program is designed to assist state, local, and tribal law
enforcement agencies to procure technology that enhances the ability to
share information with regional, state, and federal partners. Grants are
intended to help facilitate the sharing of information across multiple
jurisdictions, with the ultimate objective of increasing public safety.

      Specifically, the purpose of grant number 2007-CK-WX-0041 was to
assist the Township of Kalamazoo to purchase and install a Michigan Public
Safety Communications System radio tower site in northeast Kalamazoo
Township to enhance police, fire, and emergency medical service
communications in areas that currently have poor, or in some cases, no
radio coverage. This system is expected to be shared by 24 Kalamazoo
County fire, police, emergency management, emergency medicine, school,
and transportation authorities. This site will enhance the technology and
operation of the Michigan Public Safety Communications System.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment; (2) drawdowns;
(3) grant expenditures, including personnel and indirect costs; (4) budget
management and control; (5) matching; (6) property management;
(7) program income; (8) federal financial and progress reports; (9) grant
requirements; (10) program performance and accomplishments; and
(11) monitoring of subgrantees and contractors. We determined that
personnel costs, indirect costs, program income, and subgrantees were not
applicable to this grant.
     Our audit revealed only minor instances of noncompliance with regard
to COPS grant requirements. Specifically:

     •   Kalamazoo Township does not have a policy to regularly change
         passwords for its automated accounting system; as a result its
         employees have never changed their passwords.

     •   Kalamazoo Township’s 2008 and 2009 progress reports were filed
         19 and 3 days late, respectively.

     •   Kalamazoo Township’s property records did not identify as federally
         funded equipment that was purchased with federal funds.

     •   Kalamazoo Township lacks a formalized policy for accountable
         property.

     The results of our audit are discussed in detail in the Findings and
Recommendations section of the report. Our audit objective, scope, and
methodology are discussed in Appendix I.




                                    - ii –
                              TABLE OF CONTENTS

INTRODUCTION ....................................................................... 1
     Background.......................................................................... 2
     Our Audit Approach............................................................... 2

FINDINGS AND RECOMMENDATIONS ....................................... 3
     Internal Control Environment ................................................. 3
     Drawdowns .......................................................................... 4
     Budget Management and Control ............................................ 4
     Matching Costs ..................................................................... 5
     Grant Expenditures ............................................................... 6
     Accountable Property ............................................................ 6
     Reports ............................................................................... 7
     Compliance with Grant Requirements ...................................... 8
     Program Performance and Accomplishments ............................ 9
     Recommendations ................................................................ 9

APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ......... 10

APPENDIX II - AUDITEE RESPONSE ....................................... 11

APPENDIX III - U.S. DEPARTMENT OF JUSTICE RESPONSE .... 13

APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL
               ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT ............. 17
                              INTRODUCTION

       The Office of the Inspector General, Audit Division, has completed an
audit of the Office of Community Oriented Policing Services (COPS)
Technology Program grant number 2007-CK-WX-0041 in the amount of
$746,934 awarded to the Township of Kalamazoo, Michigan. The COPS
Technology grant program is designed to assist state, local, and tribal law
enforcement agencies to procure technology that enhances the ability to
share information with regional, state, and federal partners. Grants are
intended to help facilitate the sharing of information across multiple
jurisdictions, with the ultimate objective of increasing public safety.

      Specifically, the purpose of grant number 2007-CK-WX-0041 was to
assist the Township of Kalamazoo to purchase and install a Michigan Public
Safety Communications System (MPSCS) radio tower site in northeast
Kalamazoo Township to enhance police, fire, and emergency medical service
communications in areas that currently have poor, or in some cases, no
radio coverage. This system is shared by 24 Kalamazoo County fire, police,
emergency management, emergency medicine, school, and transportation
authorities. This site is expected to enhance the technology and operation of
the MPSCS.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, including personnel and indirect costs, (4) budget
management and control, (5) matching, (6) property management,
(7) program income, (8) federal financial and progress reports, (9) grant
requirements, (10) program performance and accomplishments, and
(11) monitoring of subgrantees and contractors. We determined that
personnel costs, indirect costs, program income, and subgrantees were not
applicable to this grant. As shown in Table 1, Kalamazoo Township was
given a total of $746,934 in federal funds to implement the grant program
and was required to provide matching funds amounting to $248,978, which
represents 25 percent of the total award of $995,912.
     TABLE 1 - COPS OFFICE TECHNOLOGY PROGRAM GRANT AWARDED
              TO THE TOWNSHIP OF KALAMAZOO, MICHIGAN
                            AWARD      AWARD
        GRANT AWARD                             AWARD AMOUNT
                          START DATE  END DATE
      2007-CK-WX-0041             09/01/07         02/29/12            $ 746,934
           Local Match                                                   248,978
                                                        Total:        $ 995,912
   Source: COPS

Background

       Kalamazoo Township is located in southwest Michigan and, according
to its grant application, has a population of 21,675.

       COPS was established as a result of the Violent Crime Control and Law
Enforcement Act of 1994 to assist law enforcement agencies in enhancing
public safety through the implementation of community policing strategies in
jurisdictions of all sizes across the country. Community policing represents a
shift from more traditional law enforcement in that it focuses on prevention
of crime and the fear of crime on a local basis. Community policing puts law
enforcement professionals on the streets and assigns them a beat so they
can build mutually beneficial relationships with the people they serve.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the COPS 2007 Technology Program Grant
Owner’s Manual and the grant award documents.

      In conducting our audit, we performed sample testing in four areas:
(1) drawdowns, (2) grant expenditures, (3) matching, and (4) asset
management. In addition, we reviewed the timeliness and accuracy of
Federal Financial Reports (FFR) and progress reports, evaluated performance
to grant objectives, and reviewed the internal controls of the financial
management system. 1 Our audit objectives, scope, and methodology are
discussed in Appendix I.



       1
          The type of financial report submitted to OJP changed during our audit period. All
reports submitted through September 30, 2009, were Financial Status Reports. After that
time, the reports became Federal Financial Reports (FFR). Although we reviewed both types
of reports, in this report we refer to all financial reports as FFRs.


                                           -2 -
                      FINDINGS AND RECOMMENDATIONS

      Our audit revealed only minor instances of noncompliance with
      regard to COPS grant requirements. We found that Kalamazoo
      Township’s internal control environment appears to be adequate
      to segregate duties, trace transactions, and limit access to
      systems. However, Kalamazoo Township does not have a policy
      to regularly change passwords to its accounting system; as a
      result the employees have never changed their passwords. Also,
      although the grantee maintains property listings, it lacks a
      formalized policy for accountable property. In addition, although
      the federal financial reports were accurate and submitted in a
      timely manner, the 2008 and 2009 progress reports were filed
      19 and 3 days late, respectively.

Internal Control Environment

       We reviewed Kalamazoo Township’s financial management system,
policies, and procedures to assess its risk of non-compliance with laws,
regulations, guidelines, and terms and conditions of the grant. We also
interviewed individuals who were involved with the grant, such as grant
project management, property management, and accounting personnel; and
we evaluated grant management practices to further assess risk.

Single Audit

      Office of Management and Budget (OMB) Circular A-133 requires
grantees to perform a Single Audit if federal expenditures exceed $500,000
in a year. We determined that Kalamazoo Township was not required to
have a Single Audit performed in 2008 and 2009 because the township’s
federal award expenditures did not exceed $500,000 in either fiscal year. 2

Financial Management System

      Kalamazoo Township maintains its accounting records in an
automated, stand-alone system. The financial management system provides
for segregation of duties, transaction traceability, and limited access to the
system. However, there was no policy to regularly change passwords, and
as a result the accounting employees have never changed their passwords.
We believe that Kalamazoo Township’s accounting staff should change their
passwords on a regular basis to enhance security over the accounting
system. Based on our review of the financial management system and

      2
          Kalamazoo Township’s fiscal year is from January 1 through December 31.


                                           -3 -
interviews with township personnel, except for not changing passwords to
the financial management system, we believe Kalamazoo Township utilizes
an adequate system of internal controls to ensure compliance with applicable
financial requirements of the COPS Technology Program.

Drawdowns

      Grant officials stated that drawdowns were based on actual
expenditures in the accounting records, less a required local match of
25 percent. As shown in Table 2, we reviewed the accounting records and
compared expenditures to actual drawdowns and found that the drawdowns
were less than the expenditures by approximately 25 percent. This is
because the accounting records include both the federal portion (75 percent)
and the match portion (25 percent). As a result, we concluded that there
were no excess drawdowns.

      TABLE 2 - DRAWDOWNS VERSUS ACCOUNTING RECORDS
                                        GRANT
                                    EXPENDITURES                       CUMULATIVE
                                   PER ACCOUNTING                     EXPENDITURES
      DATE OF      AMOUNT OF         RECORDS FOR       CUMULATIVE         PER
    DRAWDOWN       DRAWDOWN          DRAWDOWN          DRAWDOWNS      ACCOUNTING
     PER COPS      PER COPS            PERIOD           PER COPS       RECORDS

    01/07/2009        $401,222            $531,862         $401,222       $531,862

    04/14/2009            5,153             16,095          406,375        547,957

    08/03/2009           89,784            113,591          496,159        661,548
  Source: COPS and Kalamazoo Township accounting records


Budget Management and Control

      The grant award total project costs were $995,912, including federal
funds and local match. As shown in Table 3, Kalamazoo Township’s budget
contained a small amount for travel to attend the required COPS Technology
Program Advanced Training Workshop, while the bulk of the budget was for
the purchase of the radio tower equipment. We assessed the grantee’s
expenditures in the budget categories, and we determined that Kalamazoo
Township adhered to the grant requirement to spend grant funds within the
approved budget categories.




                                          -4 -
                                TABLE 3
                     BUDGET MANAGEMENT AND CONTROL
                                               ORIGINAL          ACTUAL COSTS
                                                GRANT               (as of
                       COST CATEGORY            BUDGET             12/1/10)

                   Personnel                         -                  -

                   Fringe Benefits                   -                  -

                   Travel                       $        5,284      $       1,861

                   Equipment                        990,628             659,687

                   Supplies                          -                  -

                   Construction                      -                  -

                   Contract/Consultant               -                  -

                   Other                             -                  -

                   TOTAL DIRECT COSTS               995,912             661,548

                   Indirect Costs                    -                  -

                   TOTAL                       $995,912            $661,548

                   FEDERAL FUNDS                 746,934             535,388

                   LOCAL MATCH                 $248,978            $126,160
                   Source: COPS and Kalamazoo Township Accounting Records


Matching Costs

      As shown in Table 3 above, under grant number 2007-CK-WX-0041,
Kalamazoo Township was required to provide $248,978 in local matching
funds, which represents 25 percent of the total project budget of $995,912.
At the time of our audit, project expenditures were $661,548 and the match
contribution was $126,160, which represented 19 percent of total
expenditures. The Chief stated that Kalamazoo Township’s remaining match
funds would be provided out of the Township’s 911 fees, and he would
ensure the local match requirement was fully met by the end of the grant
period. 3 Additionally, we reviewed the two matching transactions for
allowability and supporting documentation and found no discrepancies.




       3
          According to the COPS 2007 Technology Program Grant Owner’s Manual, matching
contributions may be applied at any time during the life of the grant, provided that the full
matching share is obligated by the end of the grant period.


                                            -5 -
Grant Expenditures

       We reviewed Kalamazoo Township’s general ledger accounts
designated for the COPS Technology grant funds and identified
20 transactions totaling $661,548. We reviewed 100 percent of the grant-
funded transactions to confirm they were appropriately authorized, properly
classified to the budget categories, accurately recorded, and properly
supported. The only discrepancies we found were that travel expenditures
were not properly charged to the grant. Grant officials told us that this was
because the grant account had not yet been set up at the time the
expenditures were incurred. Kalamazoo Township never transferred those
expenses to the new grant account when it was set up in 2008, but left the
expenditures in the Police Department's Travel Account because the costs
were expended in the prior fiscal year. We did not consider this to be
significant.

Accountable Property

       OMB Circular A-133 and 28 C.F.R. § 66.32 (2009) require grantees to
implement controls to ensure property and equipment purchased with
federal funds are properly safeguarded against loss from unauthorized use
or disposition. As described in the Budget Management and Control section
of this report and illustrated in Table 3, Kalamazoo Township budgeted
$990,628 for equipment and had expended $659,687 for equipment at the
time of our fieldwork. We reviewed Kalamazoo Township’s records for
accountable equipment and selected all of the equipment purchased and
installed to verify that the items were: (1) shown in the inventory, (2)
identified as federally funded, (3) physically present, and (4) used as shown
in the grant award documentation. During this review, we found that the
radio equipment purchased with grant funds was not identified as federally
funded in the property records. The grantee agreed that this was true.

       In addition, we found that although the grantee maintains equipment
listings and could articulate its practices for physical inventories and other
property management functions, it lacks a formalized policy for accountable
property. We believe that Kalamazoo Township should develop a formal,
written policy governing its property management functions to ensure all
property, including property purchased with federal funds, is properly
safeguarded against loss.




                                     -6 -
Reports

      According to the COPS 2007 Technology Program Grant Owner’s
Manual, award recipients are required to submit both financial and program
progress reports. These reports describe the status of the funds and the
project, compare actual accomplishments to the objectives, and report other
pertinent information. We reviewed Federal Financial Reports (FFR) and
annual Progress Reports, and found the FFRs and Progress Reports were
generally timely and accurate.

Federal Financial Reports

      COPS requires grantees to submit FFRs no later than 30 days after the
end of each quarter. We reviewed the four most recently submitted FFRs at
the time of our fieldwork and found all four were submitted timely, as shown
in Table 4.

            TABLE 4 - FEDERAL FINANCIAL REPORT HISTORY
             REPORT PERIOD    FFR DUE    DATE
            FROM - TO DATES    DATES   SUBMITTED DAYS LATE
            10/01/09 - 12/31/09        01/30/2010    01/08/2010          0
            01/01/10 - 03/31/10        04/30/2010    04/02/2010          0
            04/01/10 - 06/30/10        07/30/2010    07/01/2010          0
            07/01/10 - 09/30/10        10/30/2010    10/04/2010          0
          Source: COPS

     We also reviewed eight FFRs for accuracy and found that the reports
accurately reflected grant-funded expenditures, as shown in Table 5. 4




      4
        Because there were no expenditures during the four most recent FFR periods, we
went back and examined four additional FFRs for accuracy.


                                          -7 -
          TABLE 5 - FEDERAL FINANCIAL REPORT ACCURACY
                                                               DIFFERENCE
                                          EXPENDITURES PER   BETWEEN FFRS &
      REPORT PERIOD       EXPENDITURES      ACCOUNTING         ACCOUNTING
      FROM -TO DATES        PER FFR           RECORDS           RECORDS
    10/01/08 - 12/31/08       $530,000            $530,000                  $0
    01/01/09 - 03/31/09          9,974               9,974                    0
    04/01/09 - 06/30/09          6,121               6,121                    0
    07/01/09 - 09/30/09        113,591             113,591                    0
    10/01/09 - 12/31/09              0                   0                    0
    01/01/10 - 03/31/10              0                   0                    0
    04/01/10 - 06/30/10              0                   0                    0
    07/01/10 - 09/30/10              0                   0                    0
   Source: COPS and Kalamazoo Township accounting records

Program Progress Reports

       According to the COPS 2007 Technology Program Grant Owner’s
Manual, progress reports are due annually to COPS. We reviewed the two
most recent progress reports and found that the 2008 progress report was
submitted 19 days late and the 2009 progress report was submitted 3 days
late, as shown in Table 6. On February 1, 2010, COPS notified Kalamazoo
Township that it was late in submitting the 2009 progress report.
Kalamazoo Township submitted the report the next day.

                 TABLE 6 - PROGRESS REPORT HISTORY
            REPORT PERIOD                             DATE
           FROM - TO DATES          DUE DATE       SUBMITTED    DAYS LATE
         01/01/08 - 12/31/08        1/30/2009      02/18/2009      19
         01/01/09 - 12/31/09        1/30/2010      02/02/2010       3
      Source: COPS

      The reports we reviewed appeared to be acceptable in form and
content; reports were completed in a survey format rating a series of
program performance statements on a scale of 1 to 10. The reports we
reviewed were completed fully and appeared relevant to performance of the
grant-funded program.

Compliance with Grant Requirements

      We reviewed the special conditions of the grant award and found there
were two key requirements: (1) attendance at the COPS Technology
Program Advanced Training Workshop by two employees, and (2) organizing
a technical assistance site visit by a DOJ-funded National Technical


                                         -8 -
Assistance Program. We found that two Kalamazoo Township employees
attended the COPS Technology Program Advanced Training Workshop in
February 2009. Also, the technical assistance site visit, along with the
subsequent technical assistance report, was executed.

Program Performance and Accomplishments

     According to the grant application, the purpose of the grant was to
purchase and install a Michigan Public Safety Communications System
(MPSCS) antenna at a new radio tower site in northeast Kalamazoo
Township to enhance police, fire, and emergency medical services
communications in areas that had poor, or in some cases, no radio coverage.

      The grantee established timelines in its application for accomplishing
the goals and objectives of the program. Kalamazoo Township established
three milestones for the program, which were the 30 percent, 80 percent,
and 100 percent completion stages of the project. According to the Project
Manager, there were minor delays in implementing the grant program
because the original tower at the Kalamazoo County Sheriff’s Office was
overused and Kalamazoo Township had to wait for the County to erect
another tower. At the time of our audit, there were remaining unspent grant
funds and the grantee had not drawn down grant funds for more than
1 year. According to the grantee, Kalamazoo Township is planning to
request a grant modification to use the remaining funds for additional radio
enhancement in the form of upgraded mobile radios for all Kalamazoo
Township police cars and to establish a second MPSCS antenna site.

Recommendations

     We recommend that COPS:

1.   Require that Kalamazoo Township develops a policy to ensure
     passwords for the automated accounting system are changed
     regularly.

2.   Require that Kalamazoo Township radio equipment purchased with
     grant funds be identified as federally funded in its property records.

3.   Require that Kalamazoo Township formalize its property management
     procedures to ensure that federally funded property is adequately
     safeguarded.

4.   Require Kalamazoo Township to develop procedures to ensure
     progress reports are filed in a timely manner.


                                    -9 -
                                                               APPENDIX I


               OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant; and to determine program performance and
accomplishments. The objective of our audit was to review performance
in the following areas: (1) internal control environment; (2) drawdowns,
(3) grant expenditures, including personnel and indirect costs; (4) budget
management and control; (5) matching; (6) property management;
(7) program income; (8) federal financial and progress reports; (9) grant
requirements; (10) program performance and accomplishments; and
(11) monitoring of subgrantees and contractors. We determined that
personnel costs, indirect costs, program income, and subgrantees were
not applicable to this grant.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Our audit concentrated on, but was not limited to, the award
of the grant on September 1, 2007, through December 1, 2010. This was
an audit of Kalamazoo Township COPS Technology grant
number 2007-CK-WX-0041. Kalamazoo Township had a total of $496,159
in drawdowns through November 8, 2010.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the Office of Justice Programs Financial
Guide, the COPS 2007 Technology Program Grant Owner’s Manual, and the
award documents.

      In conducting our audit, we performed testing in four areas:
(1) drawdowns, (2) grant expenditures, (3) matching, and (4) property
management. We tested 100 percent of the items in each category due to
the small number of transactions. We tested 4 drawdowns, 20 grant
expenditures, 2 matching expenditures, and several pieces of equipment.

      In addition, we reviewed the timeliness and accuracy of FFRs and
Progress Reports, and we evaluated performance as it related to grant
objectives. However, we did not test the reliability of the financial
management system as a whole.


                                   - 10 -
                                                                                                       APPENDIX II


                                           AUDITEE RESPONSE
                                                                                                           1720 Riverview Drive
                                                                                                Kalamazoo, Michigan 49004·1099

                                                                                                     www.kalamazootownship.org

Charter
Township
                                  of Kalamazoo
July 26, 2011

VIA ELECTRONIC and U.S. MAIL

Carol S. Taraszka
U.S. Department of Justice
Office of the Inspector General
Chicago Regional Audit Office
500 West Madison Street, Suite 1121
Chicago, IL 60661-2590

Dear Ms. Taraszka:

The Charter Township of Kalamazoo has received the draft copy of the Department of Justice
Office of the Inspector General's audit of the COPS TECH 2007 grant number 2007-CK-WX-
0041 and has carefully reviewed it. We were pleased, given the depth of the inquiry that only
four minor issues were noted. This grant is relatively simple in scope and operation and has not
been fully completed. As a result, the auditor was able to review each and every financial
transaction, inventory each piece of equipment acquired and generally reconstruct each action
taken by the grantee to date in fulfillment of this grant.

With respect to the recommendations, our comments are as follows:

     1) With regard to password changes on the Township's financial accounting system, we
        will immediately begin to require password changes. In discussion with the auditor
        we realize that while there is no policy, rule or regulation requiring such changes we
        concur it is a best practice. As noted, there have been no security issues associated
        with the current practice. At this point only two employees have access to the
        system.
     2) With respect to items 2 and 3, we were unaware of the requirements or frankly the
        existence of Office of Management and Budget Circular A-133 until reading the draft
        audit report. During the two weeks the auditor was present on site, she sought
        guidance from her Washington office as to whether such requirements were
        applicable under this grant. She still did not know at the conclusion of her visit in
        December of 2010. We re-reviewed all material provided at the mandatory grant
        recipient's conferences and likewise were unable to locate any information regarding
        this requirement. Upon further review of the COPS Technology Grant Program
        Grant Owner's Manual, we do indeed find OMB Circular A-133 listed as one of
        twenty references as secondary sources in the appendix of the manual.

                                                  Board of Trustees
           Terri E. Mellinger, Supervisor, Supervisor@kalamazootownship.org (269)381-8083 ext. 1211 Fax: 38 1-6930
                 Donald Z. Thall , Clerk, Clerk@kalamazoolownship.org (269)38 1·8080 ext. 11 71 Fax: 38 1-3550
           George E. Cochran, Treasurer, Treasurer@kalamazootownship.org (269)38 1-8080 ext. 1161 Fax: 38 1-3550
                            Trustees: Patricia C. Hiatt, Donald D. Martin. Mark E. Miller & Ronald E. Reid




                                                         - 11 -
Page 2

          In short, we would be happy to follow any law or promulgated rule/requirement which
          is applicable but would respectfully suggest that COPS give grantees reasonable
          notice of such requirements. In our opinion, mention at the mandatory grant
          conference and in the grant owner's manual would give such notice. As one might
          imagine, the federal bureaucracy can be quite overwhelming to those not intimately
          familiar with it or accustomed to its intricacies. In light of our newfound knowledge of
          OMB Circular A-133 we will take immediate steps to codify our current practices in a
          formalized policy to mark and inventory the property as required. Our past
          experience in receiving equipment through the state or federal governments that
          require such marking is that the granting entity provided appropriate labels.

      3) We acknowledge the late submission of the 2008 and 2009 progress reports as
         noted (3 days and 19 days respectively). All subsequent progress reports and all
         financial reports throughout the life of the grant have been filed early. All future
         reports will be as well.

We would also like to inform you that Supervisor Terri Mellinger is currently incapacitated and
unable to sign this response therefore Treasurer George Cochran is acting in her behalf.

Should you have any questions or need any further information please contact Chief Bourgeois
at (269) 567-7523.

                                                   Sincerely,




                                                                    /s/
                                                   _________________________________
                                                   Timothy S. Bourgeois, Chief of Police
                                                   Charter Township of Kalamazoo


                                                                    /s/
                                                   __________________________________
                                                   George Cochran, Treasurer
                                                   Charter Township of Kalamazoo


xc:      Donald James (Jim) Lango, Management Analyst COPS Audit Liaison Division
         Rita M. Reinhardt, C.P.A., Auditor, Chicago Regional Audit Office




                                                   - 12 -
                                                                                           APPENDIX III


                         U.S. DEPARTMENT OF JUSTICE RESPONSE

                                                     U.S. Department of Justice
                                                     Office of Community Oriented Policing Services (COPS)

Audit Liaison Division
Two Constitution Square
145 N Street, NE
Washington. DC 20530
(202) 514-7022(Telephone)
(202) 616-4418 (Facsimile)

Via Electronic and U.S. Mail

To:                Carol S. Taraszka
                   Regional Audit Manager
                   Office of the Inspector General
                   Chicago Regional Audit Office

From:              Donald J. Lango
                   Management Analyst/Audit Liaison
                   COPS Audit Liaison Division

Date:              July 27, 2011

Subject:           Response to Draft Audit Report for the Township of Kalamazoo, Michigan

This memorandum is in response to your July 7, 201 1 draft audit report for the Township of
Kalamazoo, Michigan. For ease of review, each audit recommendation is stated in bold and
underlined, followed by COPS' response to the recommendation.

Recommendation 1: Require that Kalamazoo Township) develops a policy to ensure
passwords for the automated accounting system are changed regularly.

The COPS Office concurs with the recommendation that the Township of Kalamazoo
(Kalamazoo) should develop a policy to ensure passwords for the automated accounting system
are changed regularly.

Discussion and Planned Action:

Kalamazoo agreed to implement this recommendation and advised they have already started
requiring password changes for its accounting system. However, Kalamazoo has not provided a
copy of its revised policies. We will work with Kalamazoo to obtain a copy of their revised
policy when available and will ensure that it adequately addresses this recommendation. We will
forward this policy at that time to the OIG for review and closure of the recommendation.




                                                     - 13 -
Carol S. Taraszka, Regional Audit Manager
July 27, 201 1
Page 2

Request:
Based on the discussion and planned action, COPS requests resolution of Recommendation 1.

Recommendation 2: Require that Kalamazoo Township radio equipment purchased with
grant funds be identified as federally funded in its property records.

The COPS Office concurs with the recommendation that Kalamazoo should identify the radio
equipment purchased with grant funds as federally funded in its property records.

Discussion and Planned Action:

Kalamazoo agreed to implement this recommendation and advised they will codify their
practices into a formal policy to ensure that property purchased with Federal funds is marked and
inventoried as required. We will request that the grantee provide documentation to show that it
has identified radio equipment purchased with grant funds as federally funded in its property
records. We will forward this documentation to the OIG for review and closure of the
recommendation.

Request:
Based on the discussion and planned action, COPS requests resolution of Recommendation 2.

Recommendation 3: Require that Kalamazoo Township formalize its property
management procedures to ensure that federally funded property is adequately
safeguarded.

The COPS Office concurs with the recommendation that Kalamazoo should formalize its
property management procedures to ensure that federally funded property is adequately
safeguarded.

Discussion and Planned Action:

Kalamazoo agreed to implement this recommendation and advised they will codify their
practices into a formal policy to ensure that property purchased with Federal funds is marked and
inventoried as required. However, Kalamazoo has not provided a copy of its revised policies.
We will work with Kalamazoo to obtain a copy of their revised policy when available and will
ensure that it adequately addresses this recommendation. We will forward this policy at that
time to the OIG for review and closure of the recommendation.

Request:

Based on the discussion and planned action, COPS requests resolution of Recommendation 3.




                                                 - 14 -
Carol S. Taraszka, Regional Audit Manager
July 27, 2011
Page 3

Recommendation 4: Require Kalamazoo Township to develop procedures to ensure
progress reports are filed in a timely manner.

The COPS Office concurs with the recommendation that Kalamazoo develop procedures to
ensure that progress reports are filed in a timely manner.

Discussion and Planned Action:

Kalamazoo acknowledged that it had filed two of its progress reports late. We will request that
the grantee develop and provide a copy of procedures implemented to ensure that progress
reports are submitted in a timely manner.

Request:

Based on the discussion and planned action, COPS requests resolution of Recommendation 4.

COPS would like to thank you for the opportunity to review and respond to the draft audit report.
If you have any questions, please contact me at 202-616-92 15, or you may email at
donald.lango@usdoj.gov.




                                                 - 15 -
Carol S. Taraszka, Regional Audit Manager
July 27, 201 1
Page 4

cc:    Dominic S. Gagliardi (copy provided electronically)
       Chicago Regional Audit Office

       Richard P. Theis (copy provided electronically)
       Justice Management Division

       Mary T. Myers (copy provided electronically)
       Justice Management Division

       Cynthia A. Bowie (copy provided electronically)
       Audit Liaison Division

       Nancy Daniels (copy provided electronically)
       Audit Liaison Division

       Timothy S. Bourgeois (copy provided electronically)
       Township of Kalamazoo Police Department

       Ms. Terri Mellinger (copy provided electronically)
       Township of Kalamazoo

       George Cochran (copy provided electronically)
       Township of Kalamazoo

       Grant File 2007-CK-WX-0041 (Technology Grant)

       Audit File

ORI: M139500




                                               - 16 -
                                                                 APPENDIX IV


                  OFFICE OF THE INSPECTOR GENERAL
                 ANALYSIS AND SUMMARY OF ACTIONS
                   NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the Township of
Kalamazoo and the Office of Community Oriented Policing Services (COPS).
Kalamazoo Township’s response is incorporated in Appendix II of this final
report, and COPS’s response is incorporated as Appendix III.

Recommendation Number

1. Resolved. Both Kalamazoo Township and COPS concurred with our
   recommendation to require that Kalamazoo Township develop a policy to
   ensure passwords for the automated accounting system are changed
   regularly. COPS stated in its response that Kalamazoo Township has
   already started requiring password changes for its accounting system
   and that COPS will obtain and forward to the OIG a copy of Kalamazoo
   Township’s revised policy when it is available.

   This recommendation can be closed when we receive a copy of the
   revised policy that ensures passwords for Kalamazoo Township’s
   automated accounting system are changed regularly.

2. Resolved. Kalamazoo Township and COPS both concurred with our
   recommendation to require that Kalamazoo Township identify the radio
   equipment purchased with grant funds as federally funded in its property
   records. COPS stated in its response that Kalamazoo Township advised
   that it will codify its practices into a formal policy to ensure that property
   purchased with federal funds is identified as required. In its response,
   Kalamazoo Township expressed frustration about the intricacies of
   criteria governing grants management and noted that officials were
   unaware of the requirements and the existence of the Office of
   Management and Budget Circular A-133 cited in our report. In an effort
   to provide more information on the requirements for managing
   equipment that has been acquired with grant funds (in whole or in part),
   we have added to the criteria cited in this section of the report to include
   28 C.F.R. § 66.32 (2009).

   This recommendation can be closed when we receive a copy of the
   formal policy that ensures Kalamazoo Township’s property purchased
   with federal funds is identified as federally funded in its accounting
   records.




                                     - 17 -
3. Resolved. Both Kalamazoo Township and COPS concurred with our
   recommendation to require that Kalamazoo Township formalize its
   property management procedures to ensure that federally funded
   property is adequately safeguarded. COPS stated in its response that
   Kalamazoo Township agreed to implement this recommendation by
   codifying their practices into a formal policy to ensure that property
   purchased with federal funds is inventoried as required and COPS will
   forward to the OIG a copy of Kalamazoo Township’s revised policy. As
   stated above, Kalamazoo Township’s response indicated that officials
   were unaware of property management requirements governing federal
   grantees. We have added to the criteria cited in this section of the
   report to include 28 C.F.R. § 66.32 (2009), in an effort to provide more
   information on the requirements for managing equipment that has been
   acquired with grant funds (in whole or in part).

   This recommendation can be closed when we receive a copy of the
   formal policy that ensures Kalamazoo Township’s property purchased
   with federal funds is adequately safeguarded.

4. Resolved. Kalamazoo Township and COPS both concurred with our
   recommendation to require that Kalamazoo Township develop
   procedures to ensure that progress reports are filed in a timely manner.
   COPS stated in its response that Kalamazoo Township acknowledged that
   it had filed two of its progress reports late. COPS also stated that it will
   request that Kalamazoo Township develop and provide a copy of
   procedures implemented to ensure that progress reports are submitted
   in a timely manner.

   This recommendation can be closed when we receive a copy of the
   procedures implemented by Kalamazoo Township to ensure that
   progress reports are submitted in a timely manner.




                                    - 18 -
